<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                  

                         [H.A.S.C. No. 116-44]

                     SHATTERED FAMILIES, SHATTERED

                   SERVICE: TAKING MILITARY DOMESTIC

                      VIOLENCE OUT OF THE SHADOWS

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 18, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-472                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
 


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
                Craig Greene, Professional Staff Member
                          Dan Sennott, Counsel
                         Danielle Steitz, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     3
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Clubb, Brian, Coordinator, Military & Veterans Advocacy Program, 
  Battered Women's Justice Program...............................    13
Hughes, Rohini, Survivor and Advocate............................     7
Johnston, A.T., Deputy Assistant Secretary of Defense for 
  Military and Community and Family Policy Department of Defense; 
  and Kenneth Noyes, Associate Director, DOD Family Advocacy 
  Program (Military Family Readiness Policy), Department of 
  Defense........................................................    28
Lee, David S., Director of Prevention Services, PreventConnect...    12
Olszewski, Leah, Survivor and Advocate...........................     6
Ranta, Kate, Survivor and Advocate...............................     4
Vassell, Arlene, Vice President of Programs, Prevention, and 
  Social Change, National Resource Center on Domestic Violence...    10

                                APPENDIX

Prepared Statements:

    Clubb, Brian.................................................   109
    Hughes, Rohini...............................................    67
    Johnston, A.T., joint with Kenneth Noyes.....................   117
    Lee, David S.................................................    95
    Olszewski, Leah..............................................    53
    Ranta, Kate..................................................    43
    Speier, Hon. Jackie..........................................    41
    Vassell, Arlene..............................................    81

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    
    
    SHATTERED FAMILIES, SHATTERED SERVICE: TAKING MILITARY DOMESTIC 
                      VIOLENCE OUT OF THE SHADOWS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                     Washington, DC, Wednesday, September 18, 2019.
    The subcommittee met, pursuant to call, at 2:07 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Good afternoon. This hearing will come to 
order. I want to welcome everyone to this hearing of the 
Military Personnel Subcommittee on domestic violence in the 
military.
    We are here today because domestic violence has become a 
forgotten crisis in our military. It has been 15 years since 
the DOD [Department of Defense] task force analyzed domestic 
violence within the military, yet we have seen unsettling 
warning signs since. Within the last few months, DOD reports 
have highlighted concerning failures in our services' domestic 
violence prevention systems. The DOD has not responded 
urgently.
    Today, we will hear from three survivors of domestic 
violence in the military who are bravely coming forward to 
share their experiences in the hopes that others may be helped. 
Their stories are riveting, they are painful, and they are 
real. Because we lack data that is recent, plentiful, or 
granular, we must rely on survivors, advocates, and experts to 
help us understand the unique challenges of dealing with this 
crisis within the military.
    Major Leah Olszewski is still on the run from a violent 
abuser. Air Force officials at every level refused to help her 
despite knowing of past incidents.
    Kate Ranta found justice in the civilian--not military--
court system but only after her violent ex-husband, who was 
allowed to go free and retire from the Air Force, shot her and 
her father.
    Rohini Hughes and her son Jay were verbally and physically 
abused by her husband, who as a JAG [judge advocate general], 
used his knowledge of the system against her.
    These incidents impact victims, families, communities. The 
DOD must learn to believe survivors and take action based on 
their claims and evidence. Denial, favoritism, and a complex 
bureaucracy cannot shield dangerous perpetrators.
    Domestic violence is not unique to the military. According 
to the CDC [Centers for Disease Control and Prevention], 1 in 4 
women and nearly 1 in 10 men have experienced intimate partner 
violence in their lifetimes. And, as with civilian domestic 
violence, there is no, quote, typical, unquote, military 
domestic violence case. That means policy must account for and 
address a wide range of potential aggravating factors.
    Adverse childhood experiences may create a propensity for 
domestic violence. Poor role models can make it hard to 
peacefully resolve conflicts. Law enforcement providing access 
to child care and early education, military leadership, 
Congress, and the criminal justice system all have roles to 
play.
    But we must also mitigate the factors of military life that 
can exacerbate the risks of domestic violence. Families cope 
with new responsibilities, frequent moves, and tough 
challenges. Service members may be consumed by military duties 
and struggling with post-traumatic or other stresses and a 
thirst for high-risk behaviors after multiple deployments.
    Military spouses are often isolated, underemployed, and 
struggling to make ends meet, living far from friends or 
family, and unfamiliar with local resources. It is, 
unfortunately, easy to see how these conditions can make 
domestic violence possible, more dangerous, and persistent.
    When young men and women join the military, they become our 
responsibility as one of our Nation's most precious resources. 
We are equally responsible for military families who sacrifice 
along with the service member. And we are responsible for 
military children because exposure to domestic violence has 
long-term effects and because military children are 
disproportionately likely to join the military themselves.
    I believe the military takes this problem seriously, but it 
is clear that leadership needs to address this threat with 
renewed urgency. Commanders at every level need to make 
combating domestic violence a personal--and I underscore that--
a personal priority.
    In recent years, Congress has added a UCMJ [Uniform Code of 
Military Justice] domestic violence criminal article, required 
new reporting on DOD's prevention and response systems, and 
explored expanding special victims' attorneys to cover domestic 
violence. There is far more to be done, and I hope to learn 
about some of these options today.
    Today, we will be joined by two panels. The first will 
consist of military domestic violence survivors and experts. On 
the second, we will have DOD officials responsible for 
designing and implementing relevant policies.
    We will focus on three main questions during today's 
hearing. First, are we taking the crime of domestic violence 
seriously enough? Who does it effect, and what happens to them? 
Second, how should we prevent domestic violence, reach out to 
and care for survivors, and deal with perpetrators? Third, what 
do current DOD programs look like? What are their strengths, 
and how can we further improve them?
    Before I introduce our first panel, I would like to offer 
Ranking Member Kelly an opportunity to make opening remarks.
    [The prepared statement of Ms. Speier can be found in the 
Appendix on page 41.]

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Kelly. Thank you, Chairwoman Speier, for having this 
very important hearing today. And this is an issue that I have 
been engaged in since I was a city prosecutor in 1999 at the 
misdemeanor level and later as a district attorney at the 
felony level, and I know of no more serious issue than domestic 
violence and what it does to families and lives and all those 
around who surround.
    I wish to welcome both of our panels to today's hearing. I 
particularly want to thank you three survivors of domestic 
abuse and for your bravery and your willingness to share your 
stories here today and the issues in your story.
    Domestic abuse is a serious national issue. On average, 
nearly 20 people a minute in the United States are physically 
abused by a partner. Unfortunately, the military is not immune 
to this national problem. Domestic violence in the military has 
lasting negative effects on not just the family in which it 
occurs but also in the military community as a whole.
    It is imperative that the Department of Defense have a 
comprehensive prevention and response program to ensure that 
military families have the resources needed to identify and 
prevent domestic abuse and that survivors of domestic abuse 
have the legal, medical, and behavioral health resources needed 
to rebuild their lives and those affected by these acts.
    As a former district attorney and city prosecutor, I 
prosecuted domestic violence crimes and have put domestic 
abusers behind bars. I am a firm believer in education and 
transparency in order to prevent domestic violence situations.
    And when I say ``education,'' it is not just for the 
victims. It is for peers. It is for the abusers. It is for the 
chain of command. It is understanding what domestic violence is 
and is not, understanding what the solutions are, how to get to 
credible solutions. And it is very important and it is a long-
term process to educate all those involved so that we know 
exactly how to deal with this problem because it is not 
acceptable that it stays even. We want it to get better.
    I know firsthand how difficult these cases can be to 
prosecute and how traumatic the process can be for the whole 
family. Many times they use power of separation from friends 
and associates and families to keep them from having a help 
line to reach out for. They use financial resources and lack 
that the victims have. They threaten that ``I am the only 
breadwinner.'' I understand all these unique situations, which 
many people in America just quite frankly don't understand, and 
it is an education process that commanders at all levels need 
to understand.
    From ongoing counseling to financial insecurity, it is 
imperative that the family receive the support they need after 
the criminal case has concluded, not just during but after. No 
matter how many resources we provide survivors, however, our 
primary goal should be to prevent domestic violence to begin 
with.
    I am encouraged that the Department has a new prevention 
plan of action, which is a comprehensive approach to 
prevention, including a focus on awareness and early 
intervention. I am also encouraged that the domestic violence 
response program leverages the entire scope of community-based 
resources.
    I look forward to hearing from our witnesses who are 
survivors of domestic violence about their experiences and what 
can be done to improve the process from your point of view.
    I am also interested to hear from the other witnesses on 
the first panel, some of whom have partnered with the 
Department of Defense to ensure their comprehensive prevention 
and response programs benefit from civilian best practices.
    Finally, I look forward to hearing from the Department of 
Defense on the current program and any new initiatives that may 
improve the domestic abuse prevention and response program.
    Thank you, Madam Chairman, and I yield back.
    Ms. Speier. Thank you, Mr. Kelly.
    Each witness will have the opportunity to present his or 
her testimony, and each member will have an opportunity to 
question the witnesses for 5 minutes. We respectfully ask the 
witnesses to summarize their testimony in 5 minutes if at all 
possible. Some of your stories are riveting, and we will be 
somewhat lenient in that regard.
    Your written comments and statements will be made part of 
the hearing record. Ms. Kate Ranta, survivor and advocate; Ms. 
Leah Olszewski, survivor; Mrs. Rohini Hughes, survivor and 
advocate; Ms. Arlene Vassell, vice president of program 
prevention and social change, the National Resource Center on 
Domestic Violence; Mr. David S. Lee, director of prevention 
services, PreventConnect; Mr. Brian Clubb, coordinator, 
military, and veterans advocacy program, Battered Women's 
Justice Program.
    Thank you all for being here.
    Ms. Ranta, would you like to begin?

         STATEMENT OF KATE RANTA, SURVIVOR AND ADVOCATE

    Ms. Ranta. My name is Kate Ranta, and I am a survivor of 
domestic and gun violence. My former spouse, Thomas Maffei, was 
a major in the Air Force. In 2009, we were living in officer 
housing on Fort Belvoir. It was there that he began to show 
increasingly abusive behavior toward the children and me. He 
controlled every aspect of our lives.
    During this time, Thomas was also pushing to retire. We 
were moving to Florida when the retirement came through. But as 
the time approached to close on the house we bought there, he 
still wasn't retired. So he said that he would forge orders and 
give them to those responsible for arranging PCS [permanent 
change of station] moves. He said they wouldn't even question 
it, and he was right.
    We moved into our new home in early September 2010. Thomas' 
behavior became erratic. On January 2, 2011, he took it to 
another level. He picked a fight with me, then locked me out of 
our bedroom. I heard the sound of a gun chambering. Terrified, 
I dialed 911 and ran out of the house. Then I heard the garage 
door open and out he came holding our toddler, who was only 
two.
    He got into the car, and I jumped in with them. He raised 
his fist at me, his eyes were black, and he told me to get out 
of the expletive car or he would punch me in my expletive face. 
I jumped out, and he sped off around the corner.
    When I ran back to the house the police were there and so 
was Thomas. He was giving his military coins to the officers, 
telling them that he was a veteran--he wasn't; he was still 
Active Duty--and that he had survived a Humvee explosion in 
Iraq. He didn't. He had never deployed. To them, he was a hero, 
and I was the hysterical wife.
    The next day I got a temporary restraining order, a 
civilian one, and he was served. I called his commander at 
Andrews Air Force Base, Colonel Timothy Applegate, and told him 
about the domestic violence incident, about the restraining 
order, about his soldier not being in Virginia but in Florida, 
and about the fake moving orders. He was quick to get me off 
the phone. He knew he was in trouble too. He had had no idea 
that Thomas wasn't even in Virginia for those past 4 months.
    Thomas also knew he had to get back to Virginia, which was 
what he did. In the meantime, I was connected with OSI [Air 
Force Office of Special Investigations] and reported the 
situation to them as well. As a result of that, Thomas was 
moved out from under Colonel Applegate and placed with a new 
commander, Lieutenant Colonel Michelle Ryan at Bolling Air 
Force Base, as OSI began its investigation. He was serving on 
Bolling with check-in time so they knew he had not left the 
base.
    During the months he was held at Bolling, Thomas went AWOL 
[absent without leave] two different times. Both times, I got 
calls from Lieutenant Colonel Ryan that he had not checked in 
as he was required to do, that they could not make contact with 
him, that my family and I should go somewhere where he couldn't 
find us, as she couldn't guarantee that he wasn't on his way to 
Florida. Both times they found him a day or two later, but she 
gave excuses about his whereabouts.
    OSI completed its investigation in mid-March. They were 
looking into spousal abuse as well as fraud. I was contacted by 
an investigator who let me know that they had found him guilty 
of both and would be recommending court-martial. I was 
relieved. That was until he told me that Thomas' punishment 
could actually be up to his command and that there was a chance 
that nothing would happen to him.
    Shortly after OSI closed the case, Lieutenant Colonel Ryan 
called me. She said that they had handled it administratively 
and that Thomas would be retired at the end of March. I 
literally begged her to reconsider. She said he had served 25 
years, and charging him would cause him to lose his pension. 
The military lifted the restraining order they put on him, and 
he was released out into society.
    A year and a half later, after months and months of 
civilian court hearings, Thomas showed up with a .9-millimeter 
Beretta, ambushed me at my apartment, and shot through the 
front door. My father and I were standing inside the door 
pushing against it trying to keep him out. My son, William, was 
standing just behind us.
    Thomas pushed his way in and shot some more. A bullet went 
through my right hand. He shot my dad point-blank in his left 
side, and I thought my dad had died. A bullet also went through 
my left breast just missing my heart. Another bullet went into 
my dad's left arm, leaving it paralyzed.
    Thomas did this in front of William, his own son, who was 
only 4, his own son who screamed, ``Don't do it, Daddy. Don't 
shoot Mommy.'' By some miracle, we all lived. The three of us 
got out of the apartment, and Thomas surrendered at the scene. 
He spent almost 5 years in jail before we had the civilian 
trial where he was found guilty of premeditated attempted 
first-degree murder and sentenced to 60 years in prison. So we 
saw justice on the civilian side, not the military side.
    All of this was avoidable. I hold his command fully 
responsible. They knew he was dangerous, but, instead, they 
chose not to do a thing about it. Domestic violence in the 
military is rampant. There are tons of Thomas Maffeis in their 
ranks. I hope this committee will be as appalled as I am about 
what happened to us and will take steps to change this ``take 
care of our own'' culture in the military at the expense of 
women and children whose lives are at stake.
    Thank you.
    [The prepared statement of Ms. Ranta can be found in the 
Appendix on page 43.]
    Ms. Speier. Thank you for that very compelling testimony.
    Ms. Olszewski.
    Ms. Olszewski. Yes, ma'am.
    Ms. Speier. Pronounce it for us so we----
    Ms. Olszewski. Olszewski.
    Ms. Speier. Olszewski.

       STATEMENT OF LEAH OLSZEWSKI, SURVIVOR AND ADVOCATE

    Ms. Olszewski. Good afternoon. My name is Leah Olszewski. I 
am a major in the Army National Guard, entrepreneur, daughter, 
sister, and one-time intimate partner of an Air Force Senior 
Master Sergeant Erik Cardin. Senior Master Sergeant Cardin 
misled me from day one.
    Initially under the impression he was still at Air Force 
Special Operations Command, I later learned he had been fired 
and kicked out of the unit 2 years earlier in 2014 for violence 
and abuse on service members, abuse that, according to several 
airmen, should have gotten him kicked out of the Air Force 
entirely.
    The Air Force then sent Senior Master Sergeant Cardin to 
Afghanistan for a year, where his commander told him if he did 
not stop his behavior, he was going to end up in jail. In 2016, 
Senior Master Sergeant Cardin was rewarded with a leadership 
role at Travis Air Force Base, California. One of his fellow 
noncommissioned officers warned Travis leaders of the senior 
master sergeant's history but was dismissed. They said they 
knew.
    Within 9 months of being at his Travis Air Force Base unit, 
Senior Master Sergeant Cardin was fired and kicked out again, 
this time for three significant acts of violence on service 
members. Once again, he was shuffled and made someone else's 
problem--no counseling, no court-martial, no consequences.
    A month after being fired, Senior Master Sergeant Cardin 
and I moved in together, and the severe abuse, emotional and 
physical, began. Over the next 6 months, I was a slut or a 
whore just like other women, should know my place as a woman. 
He isolated me, was jealous, enraged, and explosive. He 
constantly threatened me to break my neck and bust my teeth 
out.
    There were five physical assaults, including strangulation. 
Then, on October 11, 2017, my world came to an end when, 
preceded by 3 days of emotional abuse, he kicked me in the 
abdomen with both of his feet. Among other things, he knew I 
was pregnant. I called the police, and he ran from the house. 
Over the next 3 days, I miscarried.
    When command learned of the physical abuse, they simply 
said: Run away, Leah. He is doing you a favor.
    For the next 11 months and to this day, I have battled with 
the Air Force to do the right thing. Every entity on Travis Air 
Force Base, from command to family advocacy to security forces, 
failed me. They just waited on the senior master sergeant to 
retire.
    I asked for help from command at Joint Base McGuire-Dix-
Lakehurst, Scott Air Force Base, and directly from former Air 
Force Secretary Wilson, General Goldfein, and Chief Master 
Sergeant of the Air Force Wright, with no response or a minimal 
entirely ineffective response.
    The Air Force Inspector General later dismissed several of 
my complaints. As they always had, the Air Force turned a blind 
eye, sometimes actually actively supporting Senior Master 
Sergeant Cardin instead of holding him accountable.
    On September 1, 2018, the Air Force honorably retired 
Senior Master Sergeant Cardin--no demotion, no court-martial, 
no consequences. Now he laughs in court about the miscarriage, 
abuse, and my suffering, and has continued to terrorize me by 
skipping over 48 other States and moving down the road from me 
knowing I was here.
    He had no friends, no job, no family, no clearance, no 
reason to be here. He violated his restraining order in April 
and is retaliating against me still by trying to ruin what is 
left of my Army career. I live in fear, heavily burdened every 
day.
    The Air Force is responsible for enabling and emboldening 
Senior Master Sergeant Cardin over many years, for putting 
service members and communities at risk, and for all of my 
losses. If they will do this to me, they will do this to 
everyone and anyone.
    If Air Force leaders won't even listen to its own members 
regarding Senior Master Sergeant Cardin, let alone me, and 
years of workplace and domestic violence equate to nothing in 
their eyes, how many others are there, and what does it take? 
What does it take?
    Thank you for your time.
    [The prepared statement of Ms. Olszewski can be found in 
the Appendix on page 53.]
    Ms. Speier. Thank you so much, Ms. Olszewski.
    Mrs. Hughes.

       STATEMENT OF ROHINI HUGHES, SURVIVOR AND ADVOCATE

    Mrs. Hughes. Honorable members of the Armed Services 
Subcommittee, staff, respected experts, and witnesses present 
here today, as a former citizen of New Delhi, India, and now a 
U.S. citizen, I am a proud military Air Force spouse, a former 
spouse. I humbly and thankfully submit my testimony while being 
grateful to you for this opportunity to share my story on 
behalf of countless military families, my family, and my son 
Jay Hughes, who is with me here today.
    I am a patriotic military spouse who served as a Key Spouse 
program manager for various Air Force units, and I have been a 
proud stay-at-home mother for the last 20 years while serving 
our military, our community, and my family.
    My former husband, Major Matthew ``Matt'' Ernest Hughes is 
a prior Navy reservist, a former Active Duty U.S. Air Force JAG 
Corps officer, an AFLOA [Air Force Legal Operations Agency], at 
Joint Base Andrews, and currently has a private practice in 
Rockville, Maryland, while still serving as an Active reservist 
at an unknown location. Major Hughes has had four tours of 
deployment.
    On December 24, 2014, our world shook and was changed 
forever when my husband wiped out all our accounts, canceled 
our credit cards, and made stop payments on all outstanding 
checks. He followed these actions with an email to me stating 
erratic and controlling demands with a timeline attached for 
each demand.
    These demands clearly defined us as slaves to be 
objectified and owned, not to be loved, not to be respected, 
and not to be honored. Examples of Major Hughes' behavior was 
repeatedly laughing while degrading, tormenting, enjoying his 
cruelty towards us. Major Hughes would twist our son's nipples 
while laughing, forcing his thumbs inside an open, bleeding 
wound on Jay's shaking knee, laughing and stating that it 
didn't hurt him. He did this repeatedly.
    He neglected our unsupervised son while being intoxicated 
for several hours, which traumatized Jay, who believed his 
father was dead. On other abusive occasions, Jay would lock 
himself in a bathroom in fear for his life. Another instance 
Major Hughes dumped a large box of food on top of our sickly 
daughter's feverish body.
    After years of abuse, we sought medical and mental health 
assistance. When he discovered this, he made us feel guilty and 
prohibited us from going to hospitals and doctors, even after 
our daughter's failed attempt of suicide. Then he demanded I 
pay rent for continued shelter in our home or accept his offer 
of $200 per month for sex in exchange for shelter while he 
collected BAH [basic allowance for housing].
    We were forced to perform all of the household duties while 
he leisurely worked on his body. He would continuously yell in 
our faces calling us losers and dumb and lazy, even when I 
miscarried or was giving birth to our children.
    On December 31, 2014, I contacted Mr. Peter Katson at the 
Pentagon's legal assistance office, who encouraged me to 
contact the AFLOA commander, Colonel Thomas Zimmerman. My 
husband was reported to Child Protective Services in December 
2014 for child neglect and abuse by our counselor, formerly at 
Meier Clinics, Fairfax, Virginia.
    He has been reported again since 2015 by Walter Reed 
National Military Medical Clinic, Joint Base Andrews Family 
Advocacy Program, and Fort Belvoir Adolescent Inpatient Unit, 
and yet I am being falsely accused of parental alienation.
    In March 2015, Major Pamela Blueford, at the Joint Base 
Andrews' Family Advocacy Program, FAP, began reviewing the 
complaints submitted by Dr. Comilang at Walter Reed and began 
treating me with hostility during an interrogation in front of 
Ms. Mary Young, the victim advocate at FAP present at that 
time.
    She questioned my intentions and motives for seeking mental 
health assistance while repeatedly telling me these types of 
allegations could negatively affect my husband's career in the 
Air Force. Major Hughes' deputy in AFLOA told me my marriage 
would likely be headed towards divorce while stating that this 
was a civil matter, disregarding the reported evidence of 
abuse.
    Additionally, she stated that as long as my husband was 
paying rent, even though we chose not to return to the home due 
to our fears of our safety, he was providing adequate support 
and would not be mandated to provide any money to us for food 
or lodging while we continued to be homeless.
    In July 2015, Major Hughes separated from Active Duty in 
the Air Force to go to the Reserves. He utilized his separation 
orders to terminate our lease prematurely under the provisions 
of the Servicemember's Civil Relief Act, forcing my family into 
homelessness for almost 2 years.
    There were many other documented events of abuse, none of 
which supposedly met the Joint Base Andrews FAP abuse criteria. 
However, it did meet DOD's abuse criteria by 100 percent. After 
each abusive episode, Major Hughes would drink, deny his 
abusive actions and behavior, words and events, grin, and 
laugh. This forced us to begin documenting series of abusive 
events. We learned new terms, such as narcissism, sociopath, 
gaslighting, and coercive control, and parental alienation, 
from our therapists concerning Major Hughes.
    After several months of being ignored by my husband's 
command, AFLOA, interrogated and treated unprofessionally by 
FAP, Major Pamela Blueford continued to deny me the written 
documentation of the finding. I was informed by Ms. Mary Young 
at Joint Base Andrews FAP that this unprofessional behavior and 
aggression was a normal occurrence in the FAP office towards 
victims all the time.
    I am sorry. May I just grab some water?
    Ms. Speier. Sure. And then would you be able to sum up?
    Mrs. Hughes. Yes, ma'am.
    This former JAG has also utilized his position in 
exploiting the Servicemember's Civil Relief Act in civil court 
in front of a former JAG judge, forcing me to pay almost 
$30,000 in legal fees, which I cannot afford.
    This is a black eye on our U.S. military. It is the 
invisible scars that forever haunt me and my children through 
the failed suicide attempt from my daughter and my son's 
suicidal ideations. Major Hughes prohibits him from seeking 
medical attention. I fear losing my son to suicide while he 
eliminates all his assistance that he desperately needs. It is 
through our faith in Christ that we are able to sustain and be 
here in front of you today.
    Unfortunately, my story is not an isolated set of events or 
incidents. Many military spouses experience similar abuse, 
desertion, abandonment but are afraid to come forward because 
they are groomed not to expose their abuse while they are being 
silenced.
    Thank you for this opportunity today.
    [The prepared statement of Mrs. Hughes can be found in the 
Appendix on page 67.]
    Ms. Speier. Thank you very much, Mrs. Hughes.
    Ms. Vassell.

   STATEMENT OF ARLENE VASSELL, VICE PRESIDENT OF PROGRAMS, 
  PREVENTION, AND SOCIAL CHANGE, NATIONAL RESOURCE CENTER ON 
                       DOMESTIC VIOLENCE

    Ms. Vassell. Good afternoon, Chairwoman Speier, Ranking 
Member Kelly, and distinguished members of the committee. Thank 
you for the opportunity to provide testimony on the importance 
of prevention. I thank the committee for holding this hearing 
to discuss lifesaving prevention practices and strategies.
    As mentioned before, I am the vice president of programs, 
prevention, and social change at the Natural Resource Center on 
Domestic Violence [NRCDV], with over 20 years of experience 
responding to the needs of survivors across the Nation. Our 
mission at the National Resource Center is to strengthen and 
transform efforts to end domestic violence. Since its inception 
in 1993, NRCDV has played a key role in providing collaborative 
learning and resource development to end and prevent domestic 
violence.
    The purpose of my testimony is to share strategies for 
prevention that could be implemented by the military. These 
strategies can help prevent domestic violence before it 
happens, benefiting not only military families but all our 
communities across the country. The prevalence data has been 
shared, but what I do want to emphasize is domestic violence 
causes profound and enduring health, economic, and other 
consequences across the lifespan. So it doesn't stop.
    Additionally, studies focusing on children exposed to 
violence finds that one in five children witnessing parental 
assault also leads to increased risk of experiencing and/or 
perpetrating domestic violence as adults. I also want to 
emphasize that children are resilient--it is not a cliche--and 
can bounce back with the appropriate age development and 
culturally specific interventions.
    Prevention is much more than education, and it goes beyond 
the individual. We must use a public health approach to prevent 
first-time victimization and perpetration from happening. 
Violence can be prevented and its impact reduced in the same 
way that public health efforts have prevented and reduced 
pregnancy-related complications, workplace injuries, infectious 
diseases, and illnesses resulting from contaminated food and 
water in many parts of the world.
    Sexual violence and domestic violence are more complicated 
than other public health issues because of the intentionality 
of harm and the social stigmas associated with their 
occurrence. Primary prevention efforts though impact modifiable 
factors associated with domestic violence, such as reducing 
acceptance of violence, challenging social norms, practices, 
and policies that support or reinforce gender-based violence.
    When violence occurs, there is a sense of urgency to 
intervene and support victims, hold abusers accountable. We 
know these things are necessary, but to stop violence before it 
ever happens, it is vital that we recognize that the 
connections among issues of health, safety, economic security, 
and other factors affecting well-being can increase public 
understanding of the complexity of the violence. This 
understanding, according to the CDC, the Centers for Disease 
Control and Prevention, will help inform primary prevention 
efforts.
    Our approach at the National Resource Center on Domestic 
Violence is awareness plus action equals social change. We have 
seen success in using this formula and many organizations and 
communities have adapted this approach. Awareness, increased 
knowledge, action, we develop and disseminate resources and 
tools to proactively prevent first-time victimization and 
perpetration by interrupting the cultural rules, norms, and 
constructs that it supports.
    Based on evidence, my expertise, and experience 
collaborating with various military communities throughout my 
career, my recommendations for the military are as follows, 
some already mentioned: develop and implement a comprehensive 
domestic violence response and prevention plan; create and 
foster a culture of equity, dignity, and respect, promoting 
health and safety; create policies and practices that support 
survivors, always believe survivors, and hold abusers 
accountable so that all service members know that domestic 
violence is not acceptable and will not be tolerated; develop 
and maintain collaborative relationships with community-based 
practitioners, social justice organizations, local domestic 
violence agencies, and State coalitions. Collaboration is key 
in ending and preventing domestic violence. No single agency 
can do this alone.
    Equip service members, all levels, with tools to recognize 
warning signs and encourage safe and effective bystander 
interventions to reduce or prevent violence and assault.
    As we continue to enhance responses and offer survivors and 
their families services that are survivor-centered and trauma-
informed and lifesaving, we must continue to hold abusers 
accountable while also creating an accessible pathway for 
healing.
    And, most importantly, we must commit resources to 
addressing the root causes of violence and prevent perpetration 
and victimization from ever happening in the first place. As 
mentioned before, effective prevention programs require cross-
discipline and multisector collaborations.
    Thank you for your support and interest in prevention 
efforts, strategies, and evidence-based practices. Preventing 
violence means changing our society and its institutions, 
eliminating attitudes, beliefs, behaviors, environments, and 
policies that contribute to violence and promoting those that 
create thriving communities for individuals to live, play, 
work, and worship.
    Thank you.
    [The prepared statement of Ms. Vassell can be found in the 
Appendix on page 81.]
    Ms. Speier. Thank you, Ms. Vassell.
    Mr. Lee.

  STATEMENT OF DAVID S. LEE, DIRECTOR OF PREVENTION SERVICES, 
                         PREVENTCONNECT

    Mr. Lee. Good afternoon, Chairwoman Speier, Ranking Member 
Kelly, and members of the committee.
    I also want to thank the survivor panelists for their 
courage to speak and really highlight the importance of the 
need of changing the culture in our society, changing the 
culture in our armed services so we no longer accept domestic 
violence and make those changes that can create a place where 
people can live their lives to their full potential.
    I am the director of prevention at PreventConnect, a 
national resource center dedicated to advancing the prevention 
of domestic violence and sexual assault. Through my experience, 
we have been able to see many ways that prevention does work 
and can be able to make a difference.
    I am pleased today that we are addressing both survivor 
perspectives and prevention strategies for our Nation's armed 
services. It is necessary to be informed by survivor 
experiences to be able to define how we are going to go ahead 
in being able to create the changes we need to do.
    It is essential to respond to the needs of survivors in a 
trauma-informed manner, to assert the dignity of all people, 
and to hold those who have committed abuse accountable. 
However, those responses after violence has occurred are not 
sufficient to prevent such forms of violence from happening in 
the first place, nor are they sufficient to prevent them from 
happening in the future.
    Only with an intentional investment in prevention will you 
be able to change the culture that creates the condition which 
allows domestic violence and other forms of violence to 
continue. Prevention requires much more than awareness. 
Prevention is about creating a culture that challenges violence 
and the behaviors and the attitudes which contribute to it.
    We can learn from several other efforts that have been 
taking place. In the Department of Defense's 2018 Annual Report 
on Sexual Assault in the Military, the report noted that 
historically activities aimed at preventing sexual assault have 
primarily centered on raising awareness about the crime. These 
approaches have likely contributed to increases in victim 
reporting and use of support services, but civilian-sector 
research suggests that awareness programming does not translate 
in the kinds of long-term behavior change required to prevent 
sexual violence in the organizational level. This is also true 
for domestic violence.
    In order to do this, we must invest in prevention in the 
armed services to build a prevention infrastructure. There are 
many elements this should include. We need to have committed 
leadership for not just addressing domestic violence but its 
prevention, a commitment to be able to look at creating that 
change of culture that is going to name the problem and take 
action and be willing to be able to prevent it.
    It is going to require staff who receive good training in 
prevention, in understanding the issue, and having staff that 
are dedicated to prevention beyond just responding to the needs 
of those who have experienced domestic violence. It is going to 
require collaborative and engaging partnerships with other 
prevention efforts. We have to look at issues of domestic 
violence as we are also looking at sexual assault, sexual 
harassment, and other mental health issues.
    And it requires collaboration with local, State, and 
national civilian domestic violence prevention efforts to build 
cohesive prevention messages and programs that are going to 
work off each other and build off each other.
    There are many prevention strategies that can be able to 
make a difference or have an impact that we can see, and we 
have been dedicating our work and seeing the work that is 
taking place. Not much has been taking place within the 
military itself, but we have worked with families, workplaces, 
schools, and colleges, and sport, where we are seeing the 
beginnings of the potential for change.
    And there is several opportunities. Part of it, for 
example, in the Blue Shield of California's 2019 report ``A 
Life Course Framework for Preventing Domestic Violence,'' they 
talk about we have to mitigate and reduce childhood exposure to 
domestic violence by investing in prevention approaches aimed 
at improving the outcomes for parents and their children.
    In the Centers for Disease Control's 2017 publication 
``Preventing Intimate Partner Violence Across the Lifespan: A 
Technical Package of Programs, Policies, and Practices'' 
highlights strategies that can be able to prevent domestic 
violence. This involves engaging influential adults and peers, 
in particular, doing work with engaging men to be able to re-
examine masculinity so we can create a new form of manhood that 
is dedicated towards promoting gender equity, not male 
dominance.
    For the armed services, we should look at the lessons 
learned in sports and fraternities, for example, where we have 
been able to make changes. We need to create protective 
environments and that the armed services can take efforts 
informed by school-based and workplace initiatives to make 
shifts in their culture to enhance safety, promote healthy 
relationships and respectful boundaries. And we can strengthen 
economic supports for families. Efforts that strengthen the 
household financial security and work supports are part of a 
comprehensive way to be able to prevent domestic violence.
    Domestic violence shatters lives and families and adversely 
affects the capacity of the armed services. With an investment 
in prevention, we can make a difference in the lives of service 
members, their families, and the community. As we continue this 
journey towards prevention, we build healthy relationships, 
healthy families, and healthy communities.
    [The prepared statement of Mr. Lee can be found in the 
Appendix on page 95.]
    Ms. Speier. Thank you, Mr. Lee.
    Mr. Clubb.

 STATEMENT OF BRIAN CLUBB, COORDINATOR, MILITARY AND VETERANS 
       ADVOCACY PROGRAM, BATTERED WOMEN'S JUSTICE PROGRAM

    Mr. Clubb. I would like to thank you, Chairwoman Speier, 
Ranking Member Kelly, and the members of this committee for the 
opportunity to speak on this important topic. I am the 
coordinator of the Military and Veterans Advocacy Program for 
the Battered Women's Justice Project. I am also an attorney and 
a retired Marine officer.
    My program is funded by a grant from the U.S. Department of 
Justice Office on Violence Against Women. And through our work 
in the field, there are a number of issues we have identified 
that straddle the prevention of and response to domestic 
violence in the military and impact safety. And in the interest 
of time, I would like to summarize a number of issues that I 
have identified in my prepared testimony.
    The Armed Forces Domestic Security Act requires that 
civilian protection orders, or CPOs, be given the same force 
and effect on military installations as they have in the 
jurisdiction in which they are issued. However, it is difficult 
to enforce a CPO if key personnel on the military installation 
do not know of its existence.
    Registration procedures for CPOs can ensure that 
installation commanders and military law enforcement know about 
them, and that knowledge is crucial to enforcement. But despite 
the fact that the DOD policy permits such procedures, my 
experience is that it is rare the installations have them.
    Commanding officers also have the authority to issue 
military protection orders, or MPOs, to any service member 
under the command and have wide discretion as whether or not to 
do so. Commanding officers sometimes issue only verbal orders 
that do not provide protected parties with a written copy nor 
placement in the service member's record book, which are both 
required under DOD policy for written MPOs.
    In addition, this policy avoids the DOD requirement to 
submit MPOs to the National Criminal Information Center. This 
requirement was instituted in response to Federal law which 
mandates that commanding officers notify appropriate civilian 
authorities when any party to an MPO does not live on a 
military installation.
    Unfortunately, the recent DOD IG [Inspector General] report 
did not look at this particular issue, let alone the service's 
compliance with the actual Federal law and what it directs the 
military to do.
    Another concern about MPOs is expiration dates. Federal law 
states the MPOs shall remain in effect, quote, until such time 
as a military commander terminates the order or issues a 
replacement order, unquote.
    Several years ago the Department of Defense began a process 
to revise the standard MPO form. However, that process has 
stalled. In an interim, DOD has not issued any guidance 
regarding the issue of expiration dates. Arguably, as a result, 
commanding officers violate Federal law every time they sign an 
MPO with an expiration date.
    There is also the issue of firearms. Much research exists 
on the use of firearms in domestic violence homicides, and 
firearms are the most common manner of death in civilian as 
well as military domestic homicides. Federal law and many State 
laws restrict the possession of firearms by those that are 
subject to CPOs.
    However, we have no data as to how or if the military is 
enforcing personal firearms restrictions against service 
members or against civilians who are on military property and 
subject to those orders or whether commanding officers include 
firearms restrictions when they issue military protection 
orders.
    One issue that is not in my prepared testimony that I think 
has been raised by the testimony of the survivors here today is 
deferential treatment to senior service members. I oftentimes 
hear from individuals, to include some of the members on this 
panel today, in which it appears as if commanding officers and 
the whole military response is much more deferential to 
individuals of senior rank as well as those individuals who are 
coming close to retirement.
    The last issue I would like to address is collaboration 
between military installations and the local communities in 
which they are located. Collaboration is crucial as military-
related victims and their abusers are often navigating two 
different and sometimes conflicting systems. These two systems 
must actively work together, effectively share information, and 
evaluate their processes in order to ensure that negative 
consequences don't occur and to increase safety for victims and 
others.
    DOD policy does direct collaboration between military 
officials and civilian counterparts. But beyond military FAP 
programs and their civilian counterparts, my experience is that 
the levels of collaboration between military installations and 
local communities as a whole is, at best, spotty. Collaboration 
takes a willingness of all parties, and DOD policy by itself 
cannot enforce those in civilian communities to do so.
    Our organization previously partnered with the National 
Center on Domestic and Sexual Violence and DOD on a multiyear 
project to create a Military-Civilian Coordinated Community 
Response Model. That work identified the difficulties in 
establishing and maintaining military civilian collaboration, 
to include jurisdictional issues, different reporting systems, 
confidentiality, and, of course, cost.
    I look forward to answering any questions that you or the 
committee members may have. Thank you.
    [The prepared statement of Mr. Clubb can be found in the 
Appendix on page 109.]
    Ms. Speier. Thank you, Mr. Clubb.
    Thank you all for your outstanding testimony and to the 
survivors. Such extraordinary courage and such painful memories 
that you had to live through once again, but in so doing you 
have provided us with a great deal of understanding of how 
ubiquitous this issue is. And, as Mr. Clubb said, for those who 
are senior service members or are near retirement, you are 
poster survivors of what happens under those circumstances.
    Let me just start, Mr. Clubb, you referenced the use of 
firearms. If someone in civilian life now has been convicted of 
domestic violence, or even if they have been charged but not 
convicted, there is a means by which you can take their 
firearms away for a period of time, red flag laws being one of 
the examples.
    Does it not have a negative impact on the service member if 
they can't use a firearm in the course of their duties and, 
therefore, makes the commander less likely to want to impose an 
MPO?
    Mr. Clubb. Chairwoman, there are two specific Federal 
domestic violence statutes or substatutes within the Federal 
Gun Control Act. There is the Lautenberg Amendment, which 
requires--provides a prohibition for ammunition and firearms 
for anyone who is convicted of a misdemeanor crime of domestic 
violence.
    There is also a provision which restricts both possession 
and ownership of firearms and ammunition if an individual is 
subject to a qualifying court order specifically in which there 
is a domestic relationship, intimate partners, due process, et 
cetera.
    The Lautenberg Amendment does prohibit individuals, 
lifetime. There is no exemption for that. So, if an individual 
is convicted of a misdemeanor crime of domestic violence and 
they serve in the military, they eventually will be processed 
out because of their inability to carry a firearm.
    The qualifying court order prohibition does not have that 
same response and--or it does not require through DOD policy 
any sort of eventual discharge for that reason. There is also 
the official use exemption that allows government employees, to 
include military service members, who have to carry a firearm 
for the performance of their duties in order to do that and not 
violate Federal law.
    It has not been my personal experience that--and most of 
that is hearing from victims and survivors and from attorneys 
and advocates that are working on these issues directly--direct 
cases in which there is a--commanding officers not wanting to 
issue military protection orders for that reason. But at the 
same time, I think there is a lack of knowledge among 
commanding officers in general.
    Ms. Speier. Thank you.
    To each of you extraordinary women, if you had one thing 
that you would like to have seen changed in your set of 
circumstances that would have improved your ability to deal 
with the trauma of domestic violence or one thing as you look 
to speaking out on behalf of domestic violence victims who come 
after you, what would that be?
    Ms. Ranta. Well, for myself and my family, I think the 
pivotal moment was when OSI closed the case, and I was told 
that it would be up to his command whether to do anything about 
it or not. I was naive. I am not from a military family. I had 
no idea how to navigate this system, and it made no sense to 
me.
    But as I said at the end of my statement, I do hold his 
command fully accountable for the eventual outcome because I 
had done everything right. I had reported. I had gotten the 
protection order. I, you know----
    Ms. Speier. And OSI had recommended to commanding----
    Ms. Ranta. Right. And OSI had recommended a court-martial 
for him, and I do believe that, had he been held accountable 
and had the military taken care of things on their end, you 
know, the lethality that eventually happened on our end--almost 
death--could have absolutely been avoided.
    So just the idea that, okay, well, he served 25 years and 
his pension would be affected to me was, like, outrageous, and 
he should have absolutely been held accountable. Being found 
guilty of fraud and spousal abuse and court-martial 
recommendation should have absolutely happened, and I really do 
believe that we may have avoided near death.
    Ms. Speier. Thank you.
    Ms. Olszewski. Likewise, on the command issue specifically, 
because going back many years command failed to do anything 
with him previously. I think my goal is still to have him 
court-martialed, which can be done, from what I understand, 
without bringing him back to Active Duty. And, again, that goes 
back to the failure to court-martial him years ago really stems 
from command more than anything.
    Now, I had multiple issues with security force 
investigators never investigating, OSI not knowing for, you 
know, 7 or more months, just a wide variety of failures. But in 
the end, it was command going back many years that failed to do 
something that could have prevented me from ever meeting him 
potentially or could have mitigated or completely prevented his 
abuse of me.
    Ms. Speier. Mrs. Hughes.
    Mrs. Hughes. I would have to agree with my other 
colleagues. In addition to the command definitely being held 
responsible, the failure of their role in stepping forward and 
recognizing the reported abuse, the evidence of abuse, in 
addition to FAP's failure in stepping forward and implementing 
and executing the DOD's abuse criteria.
    I don't believe that that was done in my case, and that 
seems to be the main common thread among many other military 
spouses who are groomed to, first of all, not bring the abuse 
forward because this fear is instilled in us, and we are 
groomed to believe that it will destroy the service member's 
career.
    But then, when we do come forward, it is completely 
screened out by concluding that it didn't meet the abuse 
criteria, shutting down each and every resource that we could 
possibly obtain in seeking justice or protection for ourselves.
    Thank you, ma'am.
    Ms. Speier. Thank you.
    Mr. Kelly, 5 minutes.
    Mr. Kelly. Thank you, Chairwoman, again.
    And first of all, you know, I want to talk--we talked about 
strangulation. And when I was a district attorney [DA] in 
Mississippi, I was very helpful in trying to get the law 
changed so that it became a felony in Mississippi because that 
is one of the most controlling behaviors that a domestic abuser 
can have, is strangulation.
    And so I guess my question to you guys--if you know the 
answer. If not, I hope DOD is listening. I will ask it later--
is strangulation a felony domestic violence in the military?
    Mr. Clubb. Congressman, I know that, with the addition of 
UCMJ article--I believe it is 128(b)--that establishes domestic 
violence assault, I believe that strangulation is included in 
that. But, of course, it depends on how it is prosecuted in the 
military. Clearly, if it is non-judicial punishment, that is 
not a conviction and----
    Mr. Kelly. Thank you. I want to get to some more. But 
number one is we have got to make sure strangulation at least 
has the ability to be prosecuted as a felony.
    And second, I want to give--my wife is a victim assistance 
coordinator back home for the DA's office, and so we are very 
involved and engaged in this. And one of the things that 
Mississippi also passed a law on while I was district attorney 
that--is, if you are charged with domestic violence, 
misdemeanor or felony, you are not allowed to plead that down 
to some other violation that does not include domestic 
violence. So you can't plead to something that is not domestic 
violence so that the Lautenberg Amendment does kick in. Because 
it is very important that when someone has committed a domestic 
violence act and they have been convicted of that, that they 
lose their ability to carry a firearm and then--and part of the 
problem is, quite frankly, ATF [Bureau of Alcohol, Tobacco, 
Firearms and Explosives] would not prosecute or do anything 
with those things when reported when I was a prosecutor. ATF 
would not come take the guns away when I would call them and 
say, ``This guy is a convicted domestic violence guy that has a 
firearm,'' and they would not come take it.
    And we have got to enforce the laws that we have. Rather 
than looking for new laws, let's enforce the laws that we have 
also. Because I think that is helpful to enforce Lautenberg to 
not be able to carry a firearm forever once you are convicted 
of a felony or of domestic violence.
    How helpful would it have been to you survivors had the 
military--when you talk about pensions for senior--if they 
would have said, if convicted of domestic violence, whatever 
degree of pension you have earned to this point as a senior 
service member goes to your spouse and children to take care of 
them, but you don't get it. How helpful would that have been to 
you three?
    Ms. Ranta. Yeah, so extremely helpful. So, like I said, I 
am not--I don't know really the ins and outs of the military. I 
was only married to him for 3 years. My understanding was that, 
as the spouse, I was not really entitled to any of his pension 
because we had to be married for 10 years. But we did have--we 
do have a child together, and, you know, my child hasn't seen a 
dime of his precious pension that they so wanted him to keep. 
So, yeah, it would have been extremely helpful if that had been 
an option.
    Mr. Kelly. Because that financial instability or the 
ability to pay your bills and take care of and have a place to 
live--I heard your story--to have a place to live--that he has 
to look for a place, not you. He has to look for a place, not 
your kids. He has to look for a place to live.
    And those are--so we need to make sure that we are 
educating folks so they know that, if someone leaves, it is not 
the victim; it is the abuser who has to leave. And now if they 
are found innocent and those things, then that is a whole 
different ball game.
    But until that point, once the accusation is made, we need 
to take care of our victims and make sure that they have a 
place to live, that they [have] healthcare, and that their pay 
continues, whether that be through whatever. With those type of 
policies, that DOD helps you as a victim until resolved in 
finality, and then also not being able to plead down to 
something less than domestic violence, would that be helpful?
    Ms. Olszewski. So I know for me, sir, it is a little bit 
different, but luckily there is the California Victims 
Compensation Program, which I have been able to get some 
assistance from. So, for me, it is a little different, 
obviously, but I did incur--I went into huge debt leaving out 
of California and things of that nature.
    I don't know that I am actually really eligible for 
anything, but--so, for me, it doesn't really apply so, I just 
wanted to----
    Mr. Kelly. And then the final thing, and I guess I just got 
time for a comment, but I want to make sure that we understand 
how to get either civilian protection orders and military 
protection orders. There needs to be a policy of who in the 
chain of command gets those and to be a validation that they 
have to be and they are required by the violator to turn those 
over to the chain of command, which becomes a crime if they 
don't do so.
    And, with that, I yield back, Chairwoman.
    Ms. Speier. Thank you, Mr. Kelly.
    To your point, 70 percent of our service members live off 
base. So the likelihood of a CPO being identified by the 
perpetrator and reporting it to the command is somewhat, I 
think, challenging. It seems like we need to put something in 
place where there is a sharing of that data between the two, 
the civilian and the military.
    Mr. Clubb. Chairwoman, there is a DOD policy that requires 
service members to reveal or tell their command when they are 
not eligible, but whether or not, especially younger service 
members, really understand that if they have a protection order 
against them is debatable.
    Ms. Speier. Right. Right.
    Mrs. Davis for 5 minutes.
    Mrs. Davis. Thank you. Thank you, Madam Chair.
    Thank you all. I really appreciate your testimony.
    I wanted to just start with Ms. Vassell for a second, 
because you listed a number of best practices, resources. And 
as I am sitting here listening to those, I am wondering whether 
our survivors are sort of thinking about those too and then 
feeling so frustrated because none of those things seem to be 
there for them.
    And so where is the connection? You know, we often talk 
about best practices. We want to change the culture. We want 
people to be able to go for help when they need it and maybe 
even if they are not sure they need it, but they have a sense 
that something is wrong in their situation.
    And I know it was mentioned that, you know, we need to 
connect some of the training, the culture. And yet we are 
talking about this, and it has been a long time that we have 
been talking about this, and that is my frustration. So the 
question that the chairwoman asked about pointing to one thing 
that would have made a difference, could you point to a 
systemic problem that we could fix that would prevent this from 
happening to anyone else? Do you feel you answered that 
question, or is there something else in this that is just 
amiss?
    Mrs. Hughes. Ma'am, I believe, as Mr. Kelly mentioned, we 
currently have excellent provisions in the legislation. We 
currently have an incredible DOD abuse criteria. I don't 
believe that it needs to be improved. I believe it needs to be 
executed. I think there is a major impediment in gaps that we 
need to recognize today, that, unfortunately, the commanders, 
either through the lack of knowledge or the lack of desire or 
the lack of--I say this respectfully--their arrogance, they are 
not executing what Congress and the military has already put in 
place.
    So, even though I appreciate the best practices from my 
colleague, I think it is imperative that we look at the 
Servicemembers Civil Relief Act. It is an incredible Federal 
law placed and set to serve the military families, yet it is 
being exploited by the service members. So what can we do to 
tighten it?
    So I don't believe that new practices are going to be 
necessarily a negative; they would certainly help. But I think 
focusing on what we currently already have and executing it and 
holding individuals and commanders accountable is where the key 
is, because I think one common thread amongst all three of us 
is the commanders' failure to act and hold the service member 
responsible.
    Thank you, ma'am.
    Mrs. Davis. How would you communicate that? As a spouse, I 
know that one of the issues is the fear of somehow interrupting 
a spouse's career or a partner's career, whatever that may be, 
and somehow that being such a wholly negative and fearful thing 
to do. What would you change?
    Ms. Ranta. So I personally was not very afraid of the 
possibility of something happening to his career. I really felt 
like he needed to be held responsible. He had done this to me. 
He had done this to my children. I was in the right, in the 
sense that I had done the things that I was supposed to do, and 
he wasn't being held accountable.
    And I think the frustration comes with, as we have said, 
you know, going to the commander, nothing happening, but then 
where do you go from there? And not knowing how to navigate. 
And it is just incredibly frustrating and you feel very, very 
helpless. And it is just an entire cultural shift that has to 
happen. And other than speaking out and telling my story 
anywhere and everywhere, I don't know how to do that.
    Ms. Olszewski. If I could quickly touch on that. So, in my 
case, I was concerned about protecting him--that is often the 
case with domestic violence victims--but I also thought about 
my own career with the military and how to tell my commander, 
``Hey, this is what is going on.'' And it all came down very, 
you know--it was just difficult for me. So I think domestic 
violence victims that are service members have their own set of 
issues on top of being a spouse.
    Mrs. Davis. Do we need better help lines for fear of--that 
is not--but being able to identify someone higher up? You don't 
feel that that is a resource either?
    Ms. Olszewski. Well, so I made phone calls. I relied on 
friends that were Air Force service members who cared about 
what I had been through to contact and get email addresses for 
the next chain of command, the next chain of command, the next 
chain of command, although they did nothing as well.
    So I think it is a good idea to know where you can go, but 
if different entities aren't really sharing that information 
because they have something to cover up or----
    Mrs. Davis. And you think had this been only in the 
civilian sector, where would you have gone in that case?
    Ms. Olszewski. Right. I am not sure. I never had--been a 
domestic violence victim, so I wouldn't say that I had clarity 
on that as well, but surely within the military, which they are 
supposed to have higher standards, I would have expected more.
    Mrs. Davis. Thank you. I know my time is up. Maybe we will 
come back.
    Mrs. Hughes. Ma'am, just, lastly, I would like to answer 
your question.
    Ms. Speier. Mrs. Hughes, we are going to come back to you.
    Mrs. Hughes. Thank you.
    Ms. Speier. Mr. Mitchell for 5 minutes.
    Mr. Mitchell. Thanks very much, Madam Chair.
    We owe spouses and children of service members a great deal 
of gratitude and attention for the sacrifice they go through 
while people serve. People like the individuals you described 
today, they are not effective service members either. Let's be 
honest about it. We do not want those people serving in our 
military.
    They are dangerous. They don't represent our military well. 
They don't represent our Nation well. So the idea that somehow 
we are protecting their career, they shouldn't have one. That 
is, in my opinion, something we need to address in terms of 
policy discussions with the Pentagon, if need be, 
legislatively. If you are a domestic violence perpetrator, you 
would do that to other people, and that is a violation of our 
morals. So I don't care about their career.
    Let me ask you a question. It seems to me there is a system 
in place, you went through the process, but it just flat out 
didn't work. Is that a correct assessment, ladies? Go ahead.
    Mrs. Hughes. Sir, just this is an answer in conjunction to 
answering Mrs. Davis'. When I contacted the federally regulated 
domestic violence hotline to discover and seek out any sort of 
resource that the military had failed to provide me, because 
they only referred me to calling 211 when we were going into 
homelessness, I was told that, as a DV [domestic violence] 
victim, I would be deferred back to the military installation's 
FAP for further assistance, which had already turned me down. 
It told me that they were not going to be able to do anything. 
The only thing that they offered for assistance was counseling, 
which I had already been receiving from Walter Reed, sir.
    Mr. Mitchell. Let me ask each of you, have you gotten any 
information that any of the commanding officers that you 
contacted through the process in any manner were held 
accountable or questioned about this at all by their senior 
commanding officers?
    Ms. Ranta. Yeah, I will answer for my case. Like I said, he 
was retired. To my knowledge, Colonel Applegate is retired and 
retired in 2013. Nothing ever happened to him. As far as I 
know, it got swept under the rug that he was made aware that 
Thomas Maffei was AWOL and not even living in Virginia and had 
gone to Florida. And then Lieutenant Colonel Michelle Ryan, my 
understanding is she works at the Pentagon, and I think she 
also retired too. Nothing ever happened.
    After we were shot, I sent his mugshot and media links to 
both of his commanders and sarcastically thanked them for, you 
know, protecting their soldier instead of the soldier's wife 
and children, as I had warned. And I received no response.
    Ms. Olszewski. If I could say also, I actually filed--so 
SECAF [Secretary of the Air Force] office, Lieutenant Colonel 
Tyler Lewis, told me in September 2018, after I found out they 
had honorably retired Senior Master Sergeant Cardin, that I 
would have to show all the failures of the Air Force before 
they would relook him.
    So I filed a Security Forces/OSI and a command complaint, 
which the command complaint alone was about 60 pages. 
Initially, the Air Force IG, staff IG had said that they were 
concerned for my safety and wanted me to file a complaint. 
Well, within 2 months of filing that command complaint, they 
basically dismissed it, and they said: This case is closed. We 
consider this case closed.
    And they would not look at any of the commanders who had 
failed years before during my time and thereafter, going all 
the way up to the SECAF office.
    Mr. Clubb. Congressman, many of the issues that these 
survivors have addressed I think goes back to commander 
discretion. And we understandably give military commanders a 
wide range of discretion on many issues. Regarding domestic 
violence, that discretion, in many cases, involves lack of 
prosecution, concern about ruining the service member's career, 
et cetera, some of the things that we have discussed today.
    Mr. Mitchell. Let me stop you a second, sir, and I 
appreciate that. You don't have discretion. They should not 
have discretion when it comes to abusing your spouse or your 
children. What the hell is that discretion?
    And I think, Madam Chair, we should have the ranking 
members from the Pentagon come over here and have a 
conversation of how they are holding their commanding officers 
accountable for failure to deal with this because there is a 
system there. We have money in the system. We have policies in 
place. But they don't want to damage someone's career. They 
don't want to damage their own career.
    They are damaging our military. They are damaging families. 
It is unacceptable. And if they don't like that criteria, we 
can find other officers that want to have an Army or armed 
services that is respected in the world and in our own Nation.
    But to abuse your spouse--and my time is up, I apologize--
to abuse your spouse or children because you have a 
psychological issue or whatever other reason you may justify it 
is unacceptable in our military, is unacceptable in our 
society. But we are sure not going to tolerate it. So we need 
to have them come over here and explain to me what they are 
going to do to hold them accountable because it disgusts me.
    And I appreciate you all coming. Thank you.
    Ms. Speier. Mr. Mitchell, thank you for your comments. What 
has played out here is really abuse of command discretion. And 
in all of your cases, a determination was made that the service 
member should be protected over the family member and the 
children.
    So, much like we have done with sexual assault, we may want 
to take these cases up to a higher level so that you don't have 
that just inherent conflict of interest that exists because the 
commander knows the service member. If it goes up to another 
level, that might----
    Mr. Mitchell. Madam Chair, in my opinion, until we have 
that higher level command and we hold a commander accountable 
for their career for failing to manage their forces, we are 
never going to get there. I agree with you, and it needs to be 
something that, if you won't manage your own personnel, then 
you don't belong being a colonel or whatever other--and you go.
    As soon as someone is held--a few people are held 
accountable in the system--and you understand this, Mr. Kelly. 
As soon as some people are held accountable, then, in fact, 
they will take it seriously. And we need to insist that they 
are going to be, or we will simply find some other officers to 
lead our military. It is disgusting.
    Thank you for your deference.
    Ms. Speier. Thank you.
    In addition to holding some of the DOD officials 
accountable, I think what we also need to do is bring the 
inspector general in, because the inspector general for DOD has 
already identified a number of failings in each of the 
services, in terms of complying with DOD regulations on 
appropriately identifying, fingerprinting, handling these cases 
in a manner that is appropriate.
    Yes. Now to our colleague Mr. Cisneros, for 5 minutes.
    Mr. Cisneros. Thank you, Madam Chairwoman.
    Thank you all for sharing your story today.
    Mr. Clubb, I just kind of want to follow up on this, the 
same thing about the commanding officer discretion. And you had 
mentioned something earlier. But non-judicial punishment [NJP], 
how likely are the commanding officers, you know, going to deal 
with this through NJP rather than kind of actually reporting or 
trying to do it through a court-martial?
    Mr. Clubb. I have not seen duty statistics or service 
statistics on this the way you--the statistics that we have 
seen on sexual assault, for example, that may have been cited 
to this committee in the past.
    I think part of the reason for that is that, until just 
last year, there wasn't a domestic violence article in the 
UCMJ, and I believe there is difficulty in tracking. I have not 
served as a judge advocate in the Marine Corps, but it is my 
understanding, talking to those that are serving within the 
services, that there are ways of flagging cases as they go 
through the system even before there is a domestic violence 
article, identify who the victims are and identifying cases as 
falling under this criteria.
    But not seeing those statistics from which cases are going 
to court-martial, which cases are going to NJP or declining 
prosecution or any action, I can only speculate on that.
    Mr. Cisneros. Does the commanding officer have any 
responsibility? Like we said, 70 percent of, you know, military 
personnel are likely to live off base, so this domestic 
violence is likely to happen off base out of the commanding 
officer's jurisdiction, you know, with civilian authorities.
    When those individuals are brought to the command, what 
responsibility does a commanding officer have to take action on 
that?
    Mr. Clubb. Well, commanders can prosecute cases that happen 
off installation. And I think part of what I referenced earlier 
about military-civilian coordinated community response is the 
coordination, collaboration, sharing of information, and 
determining who is going to take cases in which either the 
civilian authorities could prosecute, military authorities, or 
potentially both, and deciding the best place to handle a case 
judiciously and effectively.
    Mr. Cisneros. Mrs. Hughes, I want to follow up on something 
you had said earlier too, right? You said, as a military 
spouse, you are kind of groomed, you know, not to come forward 
and not to report domestic violence, to not really say 
anything.
    And I think this is part of that culture that is I guess 
instilled in you, right, that we all agree that it needs to be 
changed, but who is this, you know, that is instilling this in 
you and says, ``No, don't come forward''? I mean, is it other 
spouses? Is it, you know, Air Force personnel? Is it Air Force 
service members? Who is really coming--who is this culture that 
is doing this, that is telling you not to say anything?
    Mrs. Hughes. Sir, thank you for asking that question, 
because I think it is a very pertinent question. I am the 
former Key Spouse for the Air Force in addition to the Key 
Spouse program manager. I worked very closely with the first 
sergeants and the commanders and the wing commanders, and I saw 
time and time again that as we collaborated in the Key Spouse 
program manager, the culture there seems to stem from the 
military personnel that are grooming these Key Spouses to 
ensure that the victims of domestic abuse do not come forward, 
do not share the information with the first sergeant or the 
commander, because it is going to ruin the career. And then the 
first sergeants are coming alongside the victim and reiterating 
that information, saying, that: Now, if you report this, let me 
remind you what the consequences will be. You are not going to 
get any BAH. You are not going to get any type of housing 
assistance either. You will be kicked off base.
    So these are the kind of fear tactics that are being 
instilled in the victims that are the military spouses and 
children as well. Thank you.
    Mr. Cisneros. And I think I have time for one last 
question, but, hopefully, I don't butcher it too bad, but Ms. 
Olszewski.
    Ms. Olszewski. Olszewski.
    Mr. Cisneros. Olszewski. Sorry.
    Ms. Olszewski. Good enough.
    Mr. Cisneros. So you weren't married to the master 
sergeant, correct? Right?
    Ms. Olszewski. No. We lived together. We had shared bank 
accounts, shared lease.
    Mr. Cisneros. So just one thing, and I know this is 
something that we have talked about a lot, you know, throughout 
Congress, and we talked about the boyfriend loophole, being 
that you weren't married. Did you ever come to a situation 
where they were saying that, ``Hey, well, you are not married, 
this isn't really domestic violence,'' and can you talk about 
that a little bit?
    Ms. Olszewski. Right. I think that was the thing, and that 
is why the commander said to me that day, ``Hey, just run away, 
Leah, he is doing you a favor,'' because he thought, ``Oh, this 
is so simple; they are just boyfriend-girlfriend living 
together.''
    So I did feel that the Air Force really looked at us solely 
as intimate partners. I guess, according to Family Advocacy, 
that is what we were. And then they feel, once an intimate 
partner, always an intimate partner. But, again, I didn't 
really get any benefit of being a service member, in terms of 
even special victims' counsel, which is primarily for sexual 
assault, which is great.
    But--so there were issues with that. It was really 
challenging. But now, of course, that he has filed, you know, a 
bogus IG complaint on me because I was an O-4, he is saying 
that I--now he has filed an IG complaint in the past few months 
saying conduct unbecoming of an officer because I am an O-4, 
and he was an E-8 at the time. So he had no problem back then. 
SOCOM [U.S. Special Operations Command] commander had no 
problem back then with any of this. And now it is being filed, 
and my rank is now being used against me to a degree. So, when 
it is convenient, we are just intimate partners and boyfriend-
girlfriend; and when it is not, suddenly military service comes 
into play.
    Mr. Cisneros. My time is expired. Thank you very much.
    Ms. Speier. Thank you, Mr. Cisneros.
    I have one question before we go on to Ms. Escobar. The 
Family Assistance Program--the Family Advocacy Program, excuse 
me, is going to be testifying next. Each of you had 
interactions with the Family Advocacy Program. So, after you 
answer Ms. Escobar's question, I would like for you to think 
about what didn't work for you in the F-A-P, or FAP.
    Ms. Escobar for 5 minutes.
    Ms. Escobar. Thank you, Madam Chairwoman.
    And thank you for your continued focus on issues that need 
to be brought to light and that need transparency. And many 
thanks to our witnesses, especially for your courage and for 
your willingness to tell your story and to help us address an 
issue that very badly needs to be addressed and as best we can.
    Because of your experience, I am wondering if you could 
share--and this is open, actually, for all of you, any of you 
who would like to answer this question. Where have we failed 
you? Where are some specific instances where we could have and 
should have done better so that we can look to rectify this in 
the future so that, wherever it was that we failed you, we can 
try to fix it? And it is open to any of you, anyone who would 
like to go first.
    Ms. Olszewski. Okay. I will touch on it really quickly 
because I know everyone else has something to say too. So I 
kind of believe in what Mr. Mitchell had mentioned about 
bringing the leadership, calling them out. I believe that does 
matter because it seems like a lot of things that go on are 
from the top down, and, really, it needs to be from the bottom 
up. So something like the Air Force really needs to involve 
victims, in terms of changing things.
    So I don't think that a lot of, quote/unquote, leaders will 
do anything until they are actually called out, and I think 
that is a huge thing to start with that process and then purge 
them from the military system, as he mentioned.
    Ms. Escobar. Thank you.
    Ms. Ranta. Yeah. In my situation, I was basically frozen 
out. I had no resources. I had no way of knowing how to 
navigate, you know, what to do next. I was just fortunate that 
I had military wives that helped me, you know, point me in 
different directions on who to report to and what to do.
    I mean, I had no guidance at all from his commander. His 
commander just wanted, you know, to sweep it under the rug. So, 
I mean, they just wanted to make it go away, and that was a 
humongous failure.
    Mrs. Hughes. Ma'am, as far as I am concerned, I see it as a 
major command failure because I believe that the command can 
hold FAP responsible to upholding the DOD's abuse criteria, 
because the commander has an enormous amount of influence in 
these CRB [Central Registry Board] hearings that are taking 
place under the FAP umbrella, which, unfortunately, is failing 
the system.
    So I say this very humbly and respectfully. If we are going 
to put service members in command positions that are leadership 
positions, as Mr. Mitchell mentioned, can we please ensure that 
these individuals have the moral ground to uphold and lead such 
critical issues, such as sexual assault and domestic violence 
and domestic abuse. And if they don't or if they choose not to, 
then I humbly request this subcommittee to assign an oversight 
committee which oversees these commanders and holds them 
responsible. And that committee would be under your 
subcommittee that would work collaboratively with these 
commanders at each military installation.
    Thank you, ma'am.
    Ms. Escobar. Thank you.
    Ms. Vassell. And just hearing from the survivors today and 
throughout my career--and, again, thank you all so much for 
your ongoing courage--the best practices that I had mentioned 
earlier were more focused on prevention, right? Preventing the 
violence from even happening in the first place and creating a 
culture within the military installations with, like, zero 
tolerance, and it will not happen. Perpetration will not 
happen. Victimization will not happen.
    But hearing from the survivors and survivors that I have 
continuously heard from, what I would say is policies, 
practices, day-to-day practices need to match policies. Abusers 
need to be held accountable, regardless of their rank, like Mr. 
Mitchell had mentioned earlier. Responses to survivors, if we 
are going to talk about, you know, what happens after an 
incident occurs, should be survivor-centered, should be trauma-
informed.
    The survivors that are sharing with us today, this should 
be an ongoing process. Whatever is being enforced or developed 
should be informed by survivors throughout the entire process, 
not after the fact to say, well, would this work? So I think 
engaging survivors throughout the process, listening to 
survivors about what works, what doesn't work, and with 
enhanced responses and prevention, collaboration with 
practitioners, with preventionists, with domestic violence 
programs, I think would be another best practice that I would 
talk about.
    I have coordinated projects that included installations and 
domestic violence agencies that resulted in a toolkit for 
installations and for civilians. So just talking about 
collaboration, collaboration. It sounds like it is not helpful, 
but it works, both for prevention and for intervention. So 
being survivor-centered, being trauma-informed, and hold 
perpetrators/abusers accountable.
    Ms. Escobar. Thank you.
    Unfortunately, my time has expired. Thank you.
    Ms. Speier. So the question on FAP, can you give us 30 
seconds of what FAP did or did not do for you?
    Ms. Ranta. I didn't even know about it. Actually, in your 
office today was the first time I had even heard of FAP. So 
that is a failure. Again, I had no navigation. I had no 
resources. I had no idea where to turn. So I can't even say 
that they failed me because I didn't even know about it. So, 
obviously, there is something--there is some link missing 
there. I am sure there are people that are like me.
    Ms. Speier. Ms. Olszewski.
    Ms. Olszewski. Yes. So I actually filed a Family Advocacy 
complaint with AMCIG [Air Mobility Command Inspector General], 
and they found five of six failures to have occurred. So I did 
not learn of FAP either through anybody other than my own 
efforts, through the VA [Department of Veterans Affairs], 
actually, on Travis Air Force Base. And Family Advocacy failed 
to include evidence. They ignored the strangulation, 
miscarriage, you name it. They never reported to the commanders 
or shared their information. That unrestricted aspect didn't 
even occur. So I find Family Advocacy to be kind of a--I don't 
want to say a joke, but it is bad.
    Ms. Speier. Mrs. Hughes.
    Mrs. Hughes. Ma'am, in my particular case, my cases of 
abuse in 2015 were never opened. I didn't discover this until I 
contacted someone at Lackland Air Force Base. And then, 
finally, the abuse cases were opened in 2019, only to come to 
the same conclusion, that it didn't meet the abuse criteria.
    To me, I am being told repeatedly that FAP is not an entity 
to adjudicate; it is just an entity to provide resources. 
However, I disagree. From my experience, that that is exactly 
what is taking place.
    Ms. Speier. They adjudicated and didn't provide services?
    Mrs. Hughes. That is correct, ma'am.
    Ms. Speier. Mr. Lee, you had said in your testimony that 
holding days of recollection or weeks of domestic violence 
awareness is, in part, what we tend to do as opposed to 
actually drill down and provide the prevention. I want to give 
you the last word for the panel.
    Mr. Lee. Right. So every October we declare Domestic 
Violence Awareness Month. And, indeed, many places will have a 
proclamation, and there will be an announcement that goes out.
    What we need to be able to do is it is about making that 
investment in prevention and being able to look at that 12 
months a year, about how leadership is going to be involved, 
about how we are going to not just educate but be able to 
change the structure and look at how we can use military 
culture to be able to say that this is not acceptable.
    When we see a culture that--and we heard so many stories of 
denial and not being able to--and not about accountability. The 
values of the military are about the values that are aligned 
with saying that we stand with each other to make sure that we 
are going to be stronger together and not a way that is going 
to be sacrificing people in the greater mission.
    So we need to find a way to use those messages. And there 
are prevention programs that we can do that I have described in 
my testimony that we can be able to do, that we have been doing 
in college campuses, that we have been doing with high schools, 
that we have been doing with sports, that we need to be able to 
start looking at how we can implement that in military 
settings, so we can be able to change that culture from the 
lowest rank to the highest officers to be able to make that 
change.
    Ms. Speier. Right. Thank you very much. You have been 
outstanding witnesses. We are now going to take a couple 
minutes' recess so we can reset for the next panel. Thank you 
again.
    [Recess.]
    Ms. Speier. Now we are moving on to our second panel. And I 
would like to welcome Mrs. A.T. Johnston, the Deputy Assistant 
Secretary of Defense for Military Community and Family Policy 
at the Department of Defense; and Mr. Kenneth Noyes, Associate 
Director for the DOD Family Advocacy Program, Department of 
Defense.
    Mrs. Johnston, I think you have a statement.

   STATEMENT OF A.T. JOHNSTON, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR MILITARY AND COMMUNITY AND FAMILY POLICY DEPARTMENT 
 OF DEFENSE; AND KENNETH NOYES, ASSOCIATE DIRECTOR, DOD FAMILY 
ADVOCACY PROGRAM (MILITARY FAMILY READINESS POLICY), DEPARTMENT 
                           OF DEFENSE

    Mrs. Johnston. Yes, ma'am. Thank you.
    On behalf of Mr. James Stewart and the cadre of dedicated 
and expert professionals in the Family Advocacy Program, thank 
you, Madam Chair, Ranking Member Kelly, and members of this 
distinguished subcommittee for your unfailing support of 
quality of life programs that keep our service members and 
their families strong and resilient.
    Ensuring the continued welfare and well-being of service 
members and their families is a responsibility the Department 
of Defense takes very seriously, as family readiness is 
imperative to readiness of the force. I appreciate the 
opportunity to appear before you today to discuss the 
Department's efforts in addressing the serious issue of 
domestic abuse within the military community.
    Joining me today is Mr. Ken Noyes, Associate Director from 
the Office of Military Family Readiness Policy, which is the 
policy proponent for the Family Advocacy Program.
    Before moving on, I would like to thank the witnesses on 
the first panel who shared their personal experiences. Each of 
you has taken a traumatic, heartbreaking event in your life and 
turned it into a call to action. We hear you, and we will 
continue to improve our programs and services. You and all 
other victims of domestic violence deserve nothing less.
    We consider our prevention and response actions to be 
comprehensive. However, we recognize that domestic abuse 
presents human factor challenges that require continual 
training, education, and improvement in the effectiveness and 
responsiveness of our system. We cannot do it alone. We must 
and we will continue to work with our community and Federal 
partners as well as with leading experts in academia.
    While we continue to make significant progress in our 
efforts to effectively address and prevent domestic abuse 
within the military community, the Department is acutely aware 
that there is still much work to be done. We remain committed 
to the safety and welfare of our service members and their 
families and can never forget that our families, unfortunately, 
are not immune from the serious national public health issue 
that is domestic abuse.
    We need and we welcome the continued interest and support 
of this committee and Congress in advancing this critical work. 
And, with that, we look forward to your questions.
    [The joint prepared statement of Mrs. Johnston and Mr. 
Noyes can be found in the Appendix on page 117.]
    Ms. Speier. Mr. Noyes, do you have any--do you have a 
statement?
    Mr. Noyes. No.
    Ms. Speier. You do not.
    I guess my first question, Mrs. Johnston, is, based on what 
you heard in the last panel, what steps are you going to take?
    Mrs. Johnston. First of all, all the testimony was 
absolutely heartbreaking, but what that does is that is a call 
to action to us. In these particular cases, I don't know the 
specifics, so, in that regard, I would have to refer them back 
to the services for action.
    Ms. Speier. Well, first of all, two of the people, two of 
the victims didn't even know that FAP exists. So wouldn't that 
suggest to you that you have a job to do in terms of making 
sure that all families know the services that are available at 
FAP?
    Mrs. Johnston. Yes, ma'am. We have the overarching policy 
in the Department, and then, again, we work with the services 
to make sure that all resources are known. Unfortunately, it is 
not a perfect system, and we will continue to work it.
    Ms. Speier. Okay. That really doesn't answer the question 
at all. Just because you are the overarching authority and that 
the services all have to perform their function doesn't mean 
that you don't have a responsibility to demand of them that 
they do a better job of providing information, education. And 
maybe some of these survivors could be of some value to you in 
trying to determine how better you can make that available to 
victims.
    It would seem to me that one of the questions that was 
raised is, is FAP there to provide resources or to somehow make 
a determination as to whether or not a case should move forward 
or not?
    Mrs. Johnston. Yes, ma'am. FAP is absolutely there to 
provide resources, but that is also the function to do a 
determination.
    And, with that, I am going to let Mr. Noyes address that 
issue.
    Mr. Noyes. Thank you, ma'am.
    Chairwoman Speier, I just want to address your question 
about outreach and the awareness of FAP. Certainly, we know 
that we have more work to do. Domestic violence is a scourge, 
and the work that we all have to do together as a community and 
as the DOD means that the best way forward is to ensure that 
prevention and response are coordinated efforts, because we 
know that 70 percent of our families live off installation.
    In terms of how we make service members and their families 
aware of FAP, we have multifaceted awareness campaigns that 
happen in October. And, of course, we understand that that is a 
limited way in which we reach out. It is one way in which we 
reach out.
    We also work with the Department of Defense school system 
to ensure that they are aware of our services. And, in fact, 
they work with families every day and make referrals to FAP 
every day. We have child, youth, and family programs under the 
umbrella of Military Community and Family Policy, who also help 
us in our outreach to families so that they are aware of the 
services that we provide.
    We also work with law enforcement, with command, and with 
the entire Coordinated Community Response, which is the core of 
how we address domestic abuse on the installations. And we work 
together to provide the awareness and the outreach to the 
community to understand the services that we provide and where 
we can be found.
    And, again, we know that there is more to be done. Our 
services often come with some of the things that the victims 
talked about, and that is stigma, not being supported to move 
forward, and certainly that gets attached to FAP at times. And 
we have a lot of work to do to overcome the stigma for people 
approaching Family Advocacy Program, along with our 
intersecting and other components that have the same challenges 
with people coming forward.
    In terms of your other question about accountability and 
whether we are a program that focuses on response, 
interventions, clinical services, support groups and advocacy, 
that is, indeed, our mission. It is separate, as a parallel 
process to the work that command, law enforcement, judges do in 
order to hold offenders accountable.
    We must ensure that FAP is seen as a social service 
provider that protects families working in tandem with the 
Coordinated Community Response that supports them so that law 
enforcement, command, and the court, the military court system 
can hold them accountable for domestic abuse, child abuse and 
neglect, and the other intervening forms of violence and harm--
--
    Ms. Speier. All right. Mr. Noyes, my time is almost 
expired. Let me just say this: Two out of the three victims 
today didn't even know you existed. We have made trips to bases 
around the country, talked to spouses. Oftentimes, they don't 
know you exist.
    So you have got to look at another way of communicating 
with families because the existence of your resource is there; 
it is being underutilized or not utilized at all. And I think 
that we need you to show greater accountability. I might also 
add that I think that when there is domestic violence, to bring 
counseling together for the two parents and try and keep the 
family together may not be the best strategy, and that appears 
to be one of the efforts that you continue to pursue. And I 
think that will be discussed at another time, but my time is 
expired.
    Mr. Kelly for 5 minutes.
    Mr. Kelly. I am going to go back to the chairwoman's point. 
What additional resources, if any, are necessary by you guys to 
make sure that everyone knows that FAP is available? I mean, is 
there something we can give you or what is a plan of action to 
make sure that at least they have knowledge that you exist? Is 
there a plan of action or can we provide more resources that 
make that so that the majority of--I mean, some people will 
never know, but the majority of people will know that FAP 
exists and what it exists for?
    Mrs. Johnston. To be honest, I was not aware that people 
were not aware. I know that commanders know of FAP. Therefore, 
I think that part of the strategy is a reminder of the 
programs. When there is a FAP case, the commander actually 
oversees the Incident Determination Committee. Would you like 
to----
    Mr. Noyes. Certainly.
    Mr. Kelly. Quickly, because I have got other things I want 
to get to.
    Mr. Noyes. Yes, sir. We have a comprehensive prevention 
plan that expired in 2018, and we are working now to move 
forward to create that new prevention plan, based upon the CDC 
socio-ecological model that other witnesses spoke about 
earlier. Part of that is a comprehensive communications plan, 
working with the intersecting components that work against 
violence, so SAPRO [Sexual Assault Prevention and Response 
Office], Sexual Assault and Harassment, the Office of 
Diversity, Equity, and Inclusion. Looking at----
    Mr. Kelly. That is long enough, but here is the bottom 
line: If they don't know about it, it doesn't exist. And so 
figure it out. If you need more resources, let us know. But if 
they don't know about it, it does not exist.
    Going back, can you describe the community-based approach 
to domestic violence prevention and response, and what 
resources do you leverage to do that?
    Mrs. Johnston. Yes, sir. The community-based response is we 
work with those folks outside the gate, who also have programs. 
In some cases, there would be a memorandum of understanding; in 
other cases, a memorandum of agreement. But our programs allow 
us to make sure that both on the base and off the base that we 
are able to offer our services.
    Mr. Kelly. And just as a suggestion, and whether or not--
you may already do it and I hope that you do, but every base, 
Active Duty base, okay, has a local law enforcement and local 
community there. We need to be plugged in at the hip with their 
victim assistance coordinator, whether that be at the county or 
district level or city level, whatever that is, but we ought to 
be plugged into the hip so that nobody gets the gaps.
    You know, in the military, we always have to protect the 
boundaries. That is where the enemy always likes to attack, 
because nobody is looking. And we need to do the same thing 
with our communities, our cities or counties, whatever the case 
may be. We need to be plugged in with their law enforcement and 
their victim assistance coordinators, to make sure that they 
are not--we ought to be talking. And so, if we are not, at 
least let's make sure we got a plan to talk to communities.
    Mr. Noyes. Thank you, sir. I just want to add that, in 
terms of our connection to the civilian community and the 
partnerships that we have in order to protect domestic abuse 
victims and their families, the domestic violence--I am sorry--
the domestic abuse victim advocates that are funded through OSD 
[Office of the Secretary of Defense] funding work very closely 
to help support the needs of victims and their families. And 
they work really closely with community-based programs to 
ensure that they have the intersecting supports that, should 
the DAVAs [domestic abuse victim advocates] not be able to 
provide, because of potential overwhelming need or wherever 
there may be a small installation that is isolated that really 
needs the use of community resources to help serve people, that 
they are constantly working and reaching out, going to court, 
helping them get MPOs and CPOs.
    Mr. Kelly. I have only got a minute left, so I want to get 
to the next point. I understand that those who have been 
violent in one context are likely to be violent in another. So 
people who mistreat soldiers or airmen or sailors are also 
likely to be the same ones who are mistreating their spouse.
    So what are we doing to identify and address violent 
behaviors at work that may carry over or that translate into 
domestic violence? What are we doing to train our commanders so 
that they see this bullying at work probably translates into 
bullying at home or domestic violence at home. What are we 
doing to inform and teach commanders and soldiers?
    Mrs. Johnston. I will need to take that back for the 
record. That is not an area that FAP has oversight in.
    Mr. Kelly. And, with that, you know, we have got a long way 
to go. There is nothing more important. But I am going to tell 
you, it all comes down to emphasis. And I would just say, 
whether or not--we can always have more education, but it is 
about transparency, it is about knowledge, and it is about 
educating.
    And so we have got some work to do to make sure that we 
educate the spouses and children to make sure that they know 
about the program and what resources are available.
    And, with that, Chairwoman, I yield back.
    Ms. Speier. Thank you, Mr. Kelly.
    Not to beat a dead horse, but in meetings at the various 
bases, what we heard about FAP was that they showed up at the 
hearing with the survivor, and that was about the extent of it. 
So, while you referenced that just now, I think it is so much 
more than that, and I think you are hearing that from all of us 
here today.
    Do you have any funding for research in your offices?
    Mr. Noyes. We actually do fund research. The services use 
our funding to also fund research that they identify, based 
upon trends and gaps that they see in their communities. We 
work with multiple----
    Ms. Speier. All right. Mr. Noyes, what I think we want then 
is where that money has been spent and what has it been spent 
on because I think we need to know more about when the domestic 
violence occurs.
    I have read one study that suggests it happens upon 
returning from deployment, and if that is the case, then we 
need to make sure there are the appropriate resources available 
to families at those particular junctions.
    Mrs. Davis.
    Mrs. Davis. Thank you. Thank you both for being here.
    Mrs. Johnston, you said to the survivors: We hear you. And 
I think the question often that they are wondering is, do you 
believe us?
    And I am wondering if you have any thoughts or, Mr. Noyes, 
about the extent to which we are talking I would hope about 
perhaps a relatively small number of commands that seem 
predisposed not to believe what survivors bring to them. Can 
you discuss that? Why would that be the case, if you think it 
might be the case?
    Mrs. Johnston. I can't speak to an individual commander and 
what they would be thinking. What I can say is that there is a 
process by which folks come into command, and I would be 
hopeful through that process in most cases we will weed out 
these kinds of issues, but that would be where I would think 
that that would be the place that we would see that.
    Mr. Noyes. In terms of FAP's connection to command and the 
way that they work with command, it is very focused on when a 
victim is being served, either clinically or through a domestic 
abuse victim advocate, assuming that it is an unrestricted 
report, that the FAP manager or other personnel in FAP will 
tell the command, based upon what they have learned in the 
case, about the high risk or safety issues.
    And in that way, that is the way that FAP is working both 
with command and law enforcement is to ensure that they 
understand the gravity of both risk and of safety to ensure 
that appropriate measures can be taken on the command or law 
enforcement side.
    And that is where, in terms of thinking about the 
difference between FAP and the law enforcement and command 
system, where we support victims in sharing what is happening 
to them and the risk attached to that so that then command and 
law enforcement and staff judge advocates will take it from 
there to hold the offender accountable.
    Mrs. Davis. So you have a responsibility then to share that 
information that you receive that could bring the behavior of a 
commander, for example, into question, to follow that through. 
Is that correct or----
    Mr. Noyes. In terms of command response and responsibility, 
it is the services' responsibility to hold them accountable. 
Our role is to ensure that they understand what is happening 
with the victim and the offender in unrestricted cases, and I 
would have to defer to the services otherwise.
    Mrs. Davis. I think we are familiar, obviously, with sexual 
assault in the military, in terms of restricted and 
unrestricted. But in terms of that responsibility to provide 
that information to the command, you are saying that you have 
that responsibility only if it is unrestricted?
    Mr. Noyes. We have a responsibility at FAP first and 
foremost to the victim, being victim-centered and trauma-
informed. If a victim has chosen a restricted report, she or 
he, they have made that decision for themselves. Our 
responsibility is to ensure that the services and, therefore, 
the services in monitoring the installations follow DOD policy 
as it relates to restricted reports, and that is to provide 
services without informing command and law enforcement, because 
the victim chose that route.
    Mrs. Davis. Chose to do that, okay. And that may be 
something that we should--perhaps in domestic violence, we 
should look at that as it relates to sexual assault as well.
    But my question also is, how do you get feedback? Because 
it seems that perhaps there could be a better way, like what we 
do in commands when we get the climate, you know, every year, 
every few years, right? I don't know whether families would 
necessarily fill out evaluation forms. Maybe that is better for 
research, the RAND Corporation, whoever.
    But how do you know? I mean, could you even say, 10 percent 
of our families, 35 percent of our families have no idea what 
we do versus--how do you go about understanding the extent to 
which people know when they could use your services and that 
they are there so that somebody, you know, even first off 
when--I think, actually, even when people are getting married, 
for example. Because it is the services, it is an important 
thing for people to know, what is available to me? What can I 
count on? How do people do that? What do you know about? Do you 
know how they feel about that?
    Mr. Noyes. So I would say that, in terms of educating, 
which is I believe what you are asking, educating spouses and 
intimate partners about what is available to them, it is back 
to ensuring the Coordinated Community Response is working in 
tandem with us in each piece of their area of work, so mental 
health, hospitals, child and youth programs, education.
    We work together to ensure that each of us shares what we 
know about the other programs as well and have a referral 
mechanism, information and referral mechanism in place so that 
we can make sure that families and----
    Ms. Davis. I think my time is up. I am sorry. I mean, 
Military OneSource is one avenue, perhaps, but----
    Mrs. Johnston. Also, the annual--not annual but biannual 
spouse surveys, where we actually do survey the spouses on a 
variety of topics. So, just this past year, not on the Active 
Duty but in the Reserve, we actually asked the question: Do you 
know FAP? Have you used FAP? Do you know about the New Parent 
Support Program? Have you used the New Parent Support Program? 
So we should be getting those results, and we will be able to 
better tell of the awareness of those.
    Ms. Speier. So, when those results come in, would you 
present them to the committee?
    Mrs. Johnston. Yes, ma'am.
    Ms. Speier. Mr. Kelly.
    Mr. Kelly. I just wanted to follow up on Mrs. Davis'. She 
is talking about a command climate survey which they do every 
time they have a new commander, near the end of that. And so we 
need to look at something so that they at least have the 
opportunity to fill that out so that we get some data on what 
they know and if what they know is true. So I don't know how we 
look at that, but that would be very helpful.
    Ms. Speier. Ms. Escobar for 5 minutes.
    Ms. Escobar. Thank you, Madam Chair.
    So you sat through the first panel and you heard the 
survivors basically say that they had--two of the three--that 
they had no idea that you existed. You heard one of the 
survivors say she had access to zero resources.
    So, having taken that information in and having heard some 
of the questions from some of my colleagues, what, in your 
mind, do you need to do to make this better?
    Mr. Noyes. Family Advocacy Program at DOD has the 
responsibility to monitor compliance with policy at the service 
level. I am committed, and I know Mrs. Johnston is committed as 
well, that in our oversight, we meet with the services 
regularly. We bring issues to them. They bring issues to us. We 
look at challenges and how we might better inform policy or 
practice, what other research might we be doing together.
    And this is a place where, as we are developing a revised 
oversight framework, that quarterly, when we meet with them, 
these issues will be on our agenda so that we begin to figure 
out how better to, one, reach people so that they understand 
these services are available, but also then coordinate on 
planning on where we place priorities moving forward.
    Ms. Escobar. And tell me, if you could, how often do you 
update your outreach plan? Is there an annual strategic 
planning process? Is there a review of where you have been most 
successful, where you have not been most successful? What 
research informs that plan, and who is a part of building that 
plan?
    Mr. Noyes. We work very closely with Military Community 
Outreach, which is partially Military OneSource but also Public 
Affairs, and not only our awareness campaigns but in looking 
back at our prevention plan, both primary, secondary, and 
tertiary prevention, to include communications and outreach.
    It is all part and parcel of a comprehensive planning that 
takes place with the services and with the other components 
that we are involved with under the umbrella of Military 
Community and Family Policy. And all of that work is happening 
now. We expect that, in the prevention work that we are doing 
at the DOD level with other components that address violence 
and harmful behaviors, that comprehensive communication 
strategies and outreach strategies certainly will have to be a 
part of prevention.
    So that work is continuing, and I expect that, within the 
next year or so, we would have a comprehensive plan that speaks 
to communications, outreach, and using the CDC's socio-
ecological model to address primary prevention.
    Ms. Escobar. So the plan that you say will be ready in 
about a year or two, are you updating an existing plan?
    Mr. Noyes. Part of that work is to update an existing plan. 
That plan was in place 2014 to 2018. We continue to use 
components of it moving forward as we plan either for new 
policy, new practice and standards, or for a strategic plan.
    Ms. Escobar. So am I understanding you update it every 4 
years? Is that what you are saying?
    Mr. Noyes. To my knowledge, the prevention plan was for 5 
years. And now we are looking at making decisions about whether 
we will do another one for 5 years, whether that timeframe 
needs to be different, or whether we need to change our 
strategy and look at creating a prevention policy, including 
communications and outreach, or whether that would need to be 
standards that are brought into DOD policy as well.
    Ms. Escobar. Do you know, in the existing plan as well as 
the plan that you are now proactively working on, what role do 
survivors play in informing that plan?
    Mr. Noyes. Based upon my knowledge, that is some 
significant work that remains to be done. I know that, at the 
service level, they have held focus groups to understand better 
about what survivors and families need in order to address 
domestic abuse. Again, that is done installation to 
installation. It is not policy that DOD imposes on them.
    Ms. Escobar. My time is about to expire. I would offer a 
recommendation. The recommendation is that this process, this 
planning be survivor-centric. That means their voices have to 
be predominant in the planning phase. That means their 
experiences need to be heard so that you all are able to more 
adequately be a presence there for them. They need you. They 
need the services that you provide. They need the outreach. And 
the only way we are going to fix this is if you listen to them.
    Mrs. Johnston. Thank you. We will take that back.
    Ms. Escobar. Thank you. My time is expired.
    Ms. Speier. Thank you, Ms. Escobar.
    Mr. Kelly.
    Mr. Kelly. Just one further suggestion. Exit surveys, 
whether it is through separation, divorce, separation from 
service, I think you could gain a lot of information if you did 
exit surveys with spouses and children when they leave the 
service, especially when they do it separate from the service 
member. I think you could get a lot of helpful information.
    And, with that, I yield back, Madam Chair.
    Ms. Speier. Thank you, Mr. Kelly.
    Mrs. Johnston, Mr. Noyes, thank you very much for 
participating in this hearing. I think you have heard loud and 
clear that there is a lot of work that needs to be done. I 
realize that you are an umbrella entity, but you do meet 
quarterly with each of the services.
    I am, frankly, sick and tired that we have each service 
having a different set of standards and ways of providing 
services to their service members and families. I think there 
should be some consistency across all the services. But, having 
said that, as you meet with them, I think it is going to be 
important for you to ask them to do a comprehensive drill down 
on what the needs are as it relates to domestic violence. I 
understand that you provide all kinds of other services under 
FAP, but specifically as it relates to domestic violence.
    One of the things we heard was that service members will 
oftentimes isolate their spouse and not offer their emails for 
communication purposes. We have got to find a way around that. 
You have got to be able to use email or Facebook or any number 
of other opportunities that exist on these various bases to 
communicate with these families. And certainly your FAP 
programs at each of the services can identify how to do that, 
but that has got to be one of the first steps that I think you 
undertake in order to be able to communicate better and give 
more information to the community that exists.
    So, with that, we will stand adjourned. Thank you.
    [Whereupon, at 4:08 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                           September 18, 2019

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 18, 2019

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                               [all]
</pre></body></html>
